No. 20-7462
IN THE

SUPREME COURT OF THE UNITED STATES

October Term, 2014

ANTHONY KIRKLAND

Petitioner
vs.

STATE OF OHIO

Respondent

 

 

 

 

 

I, Ronald W. Springman, Jr., do swear or declare that on this date, April 14, 2021, as required
by Supreme Court Rule 29, I have served the enclosed BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI TO OHIO SUPREME COURT on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to to a third-party commercial carrier for
delivery within 3 calendar days.

The names and addresses of those served are as follows: Andrew P. Avellano (0062907), Attorney at
Law, 4200 Regent Street, Suite 200, Columbus, Ohio 43219 and to Timothy F, Sweeney (0040027),
Attorney at Law, Law Office of ‘Timothy Farrell Sweeney, The 820 Building, Suite 430, 820 West
Superior Ave., Cleveland, Ohio 44113-1800.

I declare under penalty of perjury that the foregoing is true and correct. Executed on April 14,
2021.

    
  

Ronald W. Spy
Assistant Prosec'

 
